o

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

April 15, 2021
CASE NO.: 2D20-2201
L.T. No.: 2014CF-008299-XX
HEWITT A. GRANT, II
Appellant / Petitioner(s),

v.

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's motion for rehearing, motion for rehearing en banc and motion for
certification is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.

n

Served:
ATTORNEY GENERAL, TAMPA
HEWITT A. GRANT, II
ag

Mary Elizabeth Kuenzel

Clerk

C. SUZANNE BECHARD, A.A.G.
STACY BUTTERFIELD, CLERK

♦

!*

NOT.FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
HEWITT A. GRANT, II,
Appellant,
v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)

Case No. 2D20-2201

Opinion filed March 10, 2021.
Appeal pursuant to Fla. R. App. P.
9.141(b)(2) from the Circuit Court for Polk
County; Wayne M. Durden and Donald G.
Jacobsen, Judges.

PER CURIAM.
Affirmed.

SILBERMAN, ROTHSTEIN-YOUAKIM, and ATKINSON, JJ., Concur.

IN THE CIRCUIT COURT
OF THE TENTH JUDICIAL CIRCUIT
IN AND FOR POLK COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
CASE NO.: CF14-008299-XX

v.
HEWITT GRANT II,
Defendant.

ORDER DENYING DEFENDANT’S MOTION FOR REHEARING
THIS MATTER came before the Court upon Defendant’s Motion for Rehearing, filed on May 6,
2020.

In an earlier Motion the Defendant raised a double jeopardy violation. The Court denied the claim
as untimely in an order dated April 16,2020. See attachment. Defendant seeks rehearing on the issue.
It is ORDERED AND ADJUDGED that Defendant’s Motion is DENIED.
Defendant has thirty (30) days to appeal this order to the Second District Court of Appe; _.
DONE AND ORDERED in Bartow, Polk County, Elorida this 12th

day «ff May

,2020.

DONALD G. JACOBSEN, Circuit J idge
cc:
- Hewitt Grant II, DC#H12344, Calhoun Cl, 19562 SE Institution Dr., Blountstown, FL 32424
-- A.S.A. Victoria J. Avalon, Esq.
DGJ/abw

l

f

i

Filing # 106337331 E-Filed 04/16/2020 01:54:33 PM
IN THE CIRCUIT COURT
FOR THE TENTH JUDICIAL CIRCUIT
IN AND FOR POLK COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
v.

CASE NO.: CF14-008299-XX

HEWITT GRANT,
Defendant.
ORDER DENYING DEFENDANT’S
SUCCESSIVE MOTION FOR POSTOCNVICTION RELIEF and MOTION TO HEAR AND RULE
THIS MATTER is before the Court upon Defendant’s 3.850 Successive Motion, filed pursuant to Rule 3.850, Fla.
R. Crim. P, on April 13,2020. After review of the Motion, court file, and applicable law, die Court finds as follows:
Defendant raises a double jeopardy claim. Defendant’s Motion is untimely and successive. Defendant was
sentenced to counts 1-84 on November 19,2015, and count 85 on May 3,2016. See Judgments and Sentences. He appealed
his Judgments and Sentences and the Second District Court of Appeal per curiam affirmed and issued a Mandate on
December 28,2017. See Mandates. Defendant previously filed two Motions for Postconviction Relief which were denied
in orders dated July 2,2018 and December 18,2018. See Orders.

n

Defendant also files a Motion to Hear and Rule seeking a ruling that was transferred to the civil division as a writ.
This Court is without jurisdiction over the matter at this point.
Based on the above, it is ORDERED AND ADJUDGED that Defendant’s Motions are DENIED.
DONE AND ORDERED in Bartow, Polk County, Florida this 16th

day of April, 2020.

DONALD G. JACOBSENfCirodit Judge
cc:

-- Victoria J. Avalon, Esq., A.S.A.
— Hewitt Grant, DC#H12344, Calhoun Cl, 19526 SE Institution Dr., Blountstown, FL 32424
DGJ/abw
I CERTIFY the foregoing is a true copy of the original as it appears onfile in the office of the Clerk of the Circuit Court of Polk Count}',
Florida, and that 1 have furnished copies of this order and its attachments to the above-listed on this
day of &QAj^L , 2020.
CLERK OF THE CIRCUIT COURT
By:

<

______
Deputy Clerk

